January 20, 2011

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY & PAYMENT TECHNOLOGIES

SUBJECT: Audit Report – Fiscal Year 2010 Financial Installation Audit –
         Business Mail Entry Units (Report Number FF-AR-11-006)

This report summarizes the results of financial audits conducted at 96 statistically
selected business mail entry units (BMEU) for fiscal year (FY) 2010 (Project
Number 10BD002FF000). The objective of our audit was to determine whether the
Postal Service complied with key financial reporting controls for business mail
acceptance and verification processes and procedures at the selected units. We
conducted these audits in support of the independent public accounting firm’s (IPA)
overall audit opinions on the U.S. Postal Service’s financial statements and internal
controls over financial reporting. The Postal Reorganization Act of 1970 requires annual
audits of the Postal Service’s financial statements. See Appendix A for additional
information about this audit.

In FY 2007, we first reported significant problems related to mail acceptance and
verification procedures at BMEUs and detached mail units (DMU).1 At that time,
management concurred with the recommendations in our FY 2007 report2 and, in
response, developed a nationwide action plan with measurable goals to correct
conditions related to mail acceptance and verification procedures. Over the next 3
years, the Postal Service continued to develop and implement actions to correct these
issues; thus, we did not make any recommendations in subsequent reports.




1
  The IPA reported this as a significant deficiency in its Reports on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based on an Audit of Financial Statements Performed in Accordance with
Government Auditing Standards (November 14, 2007; November 14, 2008; and November 16, 2009).
2
  Fiscal Year 2007 Financial Installation Audit – Business Mail Entry Units (Report Number FF-AR-08-131, dated
March 19, 2008).
Fiscal Year 2010 Financial Installation Audit –                                           FF-AR-11-006
 Business Mail Entry Units


Conclusion

The Postal Service did not comply with key financial reporting controls for business mail
acceptance and verification processes and procedures. We noted that throughout the
year the Postal Service implemented various actions in a concerted effort to improve
compliance. As a result, the Postal Service’s level of compliance with these key controls
increased toward the end of the fiscal year compared to the first half of the fiscal year,
helping to ensure that customers were appropriately charged and revenues were
recognized.

Our test results in the last portion of the year also were consistent with those the Postal
Service’s Financial Testing Compliance (FTC) Group reported for their testing of the
same controls during the last two quarters of FY 2010. However, given the high level of
non-compliance we found throughout the year, plus the fact that other FY 2010 U.S.
Postal Service Office of Inspector General (OIG) audit reports indicated similar business
mail acceptance issues,3 we believe risks remain with the BMEU mail acceptance and
verification process and work remains to ensure all revenue is appropriately
recognized.4 Consequently, in FY 2011, the OIG plans to continue a body of work that
will further test Postal Service actions to address BMEU mail acceptance and
verification process and procedural issues.

Business Mail Acceptance and Verification Processes and Procedures Were Not
Followed

Our audits at 96 BMEU sites reported that Postal Service personnel did not always
follow mail acceptance and verification procedures. Appendix B lists the sites we
reviewed and Appendix C lists the deficiencies reported for FY 2010. Specifically, our
testing showed employees at a significant number of sites did not always:

        Comply with financial reporting controls over monitoring and closing inactive
         accounts.5

        Verify, complete, or post statements to customer accounts in a reasonable
         amount of time.6

        Correctly record required information from postage statements in PostalOne!.6



3
  Fiscal Year 2010 PostalOne! Outage (Report Number FF-AR-10-205, dated August 5, 2010) and                      and
          Business Mail Entry Units Mail Verification Procedures (Report Number MS-AR-10-005, dated August 30,
2010).
4
  As a result of the combination of control improvements and additional monitoring controls, the IPA concurred with
management that the significant deficiency for business mail acceptance was remediated as of September 30, 2010.
(Report on Internal Control Over Financial Reporting and on Compliance and Other Matters Based on an Audit of
Financial Statements Performed in Accordance with Government Auditing Standards, November 15, 2010).
5
  Handbook F-101, Field Accounting Procedures, Section 16-7, September 2010; and Handbook DM-109, Business
Mail Acceptance, Table 1-4, page 2 of 3, March 2010.
6
  Handbook DM-109, Chapters 3 and 5.

                                                         2
Fiscal Year 2010 Financial Installation Audit –                                         FF-AR-11-006
 Business Mail Entry Units


       Attach or sign Postal Service (PS) Form 3607, Weighing and Dispatch
        Certificate, to the postage statement after entering the data into PostalOne!.7
         
       Review Periodicals mailing frequencies.8

     Review the PostalOne! Override Report on a regular basis to ensure all overrides
       are appropriate.9

Postal Service Actions to Fix Deficiencies in Business Mail Acceptance and
Verification Processes and Procedures

The Postal Service developed and implemented a detailed plan to correct deficiencies
with business mail acceptance and verification processes and procedures that we
reported over the past few years.10 In particular, Business Mail Entry & Payment
Technologies and Finance personnel created a cross-functional team to identify and
implement process changes to strengthen internal controls and develop and distribute
related training and communication materials. Since that time, the Postal Service
engaged offices such as Sarbanes-Oxley Management Controls & Integration,
Accounting, Financial Control and Support, the Controller, and a certified public
accounting firm11 to identify other gaps and weaknesses related to the controls.
Throughout FY 2010, the Postal Service made correcting deficiencies in business mail
acceptance and verification a top priority and undertook many actions to accomplish
that goal. Specifically:

       The Business Mail Acceptance (BMA) Group, under Business Mail Entry &
        Payment Technologies, implemented a new revenue completeness process
        which was included in the March 2010 Handbook DM-109. The process focused
        on check-in/mail receipt, verification, finalizing postage statements in PostalOne!,
        placarding, induction, and end-of-day reconciliation.

       The FTC Group conducted multiple rounds of reviews to test key controls at the
        unit level.12

       BMA provided management instructions and job aids to clarify acceptance and
        verification procedures and improve consistency.
         


7
  Handbook DM-109, Chapter 3. Note: This exception was reported prior to implementation of the revenue
completeness process. The process no longer requires employees to attach the form to the statement. It now
requires employees to attach PS Form 3607-P, Mail Release Placard, to each mailing cleared for Operations.
8
  Domestic Mail Manual (DMM) 300, Mailing Standards for the U.S. Postal Service, Section 707.4.7, December 6,
2010; and Handbook DM-109, Table 1-4, page 2 of 3.
9
  Handbook DM-109, Table 1-4, page 3 of 3.
10
   Capping Reports: Financial Installation Audit-Business Mail Entry Units (FY 2007, Report Number FF-AR-08-131,
dated March 19, 2008; FY 2008, Report Number FF-AR-09-052, dated December 22, 2008; and FY 2009, Report
Number FF-AR-10-051, dated December 22, 2009).
11
   Deloitte & Touche, LLP.
12
   The OIG, at the request of the IPA, assessed FTC’s results and performance and will report those results under
separate cover.

                                                        3
Fiscal Year 2010 Financial Installation Audit –                                           FF-AR-11-006
 Business Mail Entry Units


        BMA provided approximately 30,000 individual field, district, and area staff with
         various web-based, video, and classroom training to better educate and ensure
         consistent application of the new revenue completeness mail acceptance and
         verification procedures.

        Business Mail Remediation, within Finance, established various links on their
         web site for headquarters and field staff to review reports that monitor field
         performance and compliance rates and to obtain helpful job-related tools.

        The Business Mail Remediation manager held weekly telecons with area finance,
         marketing, and accounting managers to monitor remediation progress related to
         key business mail controls.

        The Business Intelligence Group, in support of Corporate Accounting, developed
         a commercial revenue entity level control designed to detect significant revenue
         variances. The group facilitated discussions with strategic account managers and
         business alliance managers on mailing trends at the individual customer level.
         Specifically, it reviewed mailers with large revenue variances and identified
         causes for these variances. The IPA will test this entity level control.

        A special projects team, under Business Mail Entry & Payment Technologies,
         was recently created to develop the most effective technologies and business
         practices to improve processes and adapt to changing business mail and
         customer expectations. The Postal Service hopes to stabilize costs within a
         streamlined mail acceptance process by expanding access and improving
         quality, service, and efficiency.13

Although the Postal Service implemented the various actions outlined and the Postal
Service’s FTC group will be testing key financial reporting controls in FY 2011, we
believe risks remain.

Risks Continue to Exist with Business Mail Acceptance

As described in a previous section of this report, our FY 2010 testing of key financial
reporting controls at 96 BMEUs identified an unacceptably high degree of non-
compliance and increased the risk that the Postal Service may not charge for all
business mail deliveries and may not recognize the associated revenue in accounting
records. The key BMEU financial reporting controls we tested in FY 2010 were part of
the Postal Service’s efforts to address design gaps in its mail acceptance and
verification process. Further, they were designed to ensure the data related to the
nature and volume of mail received from each business mailer was entered into the
accounting systems. The non-compliance we found increases the risk that the Postal
Service may not accurately bill business mailings to customers or account for them in

13
   The BMA Vision and Strategy, which is integral to the Postal Service’s Vision 2013 implementation, focuses on four
key strategic initiatives: Results-Based Automated Verification, Centralized Account Management, Integrated
Customer Support and Feedback, and Optimized Business Mail Acceptance Network.

                                                         4
Fiscal Year 2010 Financial Installation Audit –                                           FF-AR-11-006
 Business Mail Entry Units


their financial results. These audit results, coupled with findings in other FY 2010 OIG
audit reports, leads us to be concerned that risks remain related to business mail
acceptance and verification processes and procedures.

Specifically, our FY 2010 PostalOne! Outage report found a 4-day outage in February
that considerably impacted the effectiveness of business mail operations and customer
mailing activities.14 Certain business mail acceptance controls that relied on
PostalOne!’s operational availability were not effective during the outage. Interruptions
in PostalOne! availability present a challenge to the Postal Service’s successful
correction of identified non-compliance issues because of the heavy reliance on system
functionality and availability when accepting and recording business mail. If the system
is unavailable, the Postal Service implements a contingency plan that relies on manual
processes. Manual processes are inherently more risky because of the potential for
human error. The non-compliance issues related to manual processing that we reported
this year, and in the past, were a root cause for the deficiencies in mail acceptance and
verification processes and procedures.

In addition, in FY 2010 the OIG found the same BMEU non-compliances at two large
BMEU operations that were not part of our FY 2010 sample of BMEU sites audited, nor
were the units reviewed by FTC as of July 19, 2010. The report15 concluded that
business mail verification procedures were not in place and effective at the Staten
Island BMEU. The report identified multiple mail verification issues at the Staten Island
BMEU and identified an issue at the Brooklyn BMEU related to the Mailing Evaluation
and Readability Lookup INstrument (MERLIN) Sample Selection Matrix.16

These other reports, in conjunction with our FY 2010 findings as identified herein,
reinforce our concern that risk remains in the BMEU mail acceptance and verification
process and work remains to ensure the Postal Service appropriately recognizes all
revenue. Although we are not making any recommendations in this report, we will
continue to test and monitor business mailings and business mail acceptance and
verification processes and procedures.




14
   Fiscal Year 2010 PostalOne! Outage (Report Number FF-AR-10-205, dated August 5, 2010).
15
                 and                   Mail Entry Units Mail Verification Procedures (Report Number MS-AR-10-005,
dated August 30, 2010).
16
   We noted a            BMEU mail acceptance employee did not use the sample selection matrix to select tray
samples for verification on MERLIN. Although the mail acceptance employee generated the sample selection matrix,
he did not select sample trays corresponding to the tray numbers identified in the matrix. Instead the mail acceptance
employee judgmentally selected sample trays from the top of one of two pallets because it was more convenient than
opening the shrink-wrap and selecting the required trays.

                                                          5
Fiscal Year 2010 Financial Installation Audit –                    FF-AR-11-006
 Business Mail Entry Units



Management’s Comments

Management did not specifically agree or disagree with the conclusions in the report.
However, they stated that in general, BMA has made significant progress in identifying,
documenting, and training on key controls for the acceptance and verification of
business mailing in FY 2010. Management outlined a number of improvements and
actions taken throughout FY 2010. See Appendix D for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the conclusions in the
report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact William F. Rickett, acting
director, Field Financial – Central, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Thomas G. Day
    Maura Robinson
    Julie S. Moore
    Steven R. Phelps
    Steven J. Nickerson
    Corporate Audit and Response Management




                                                  6
Fiscal Year 2010 Financial Installation Audit –                                         FF-AR-11-006
 Business Mail Entry Units


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG conducts field financial audits at revenue-generating units such as BMEUs.
We conduct these audits in support of the IPA’s overall audit opinions on the Postal
Service’s financial statements and internal controls over financial reporting.

BMEUs are established for authorized mailers to present business mailings. The Postal
Service requires mailers to properly prepare all mailings, take them to an approved
BMEU, and pay for them before they enter the mailstream, unless otherwise authorized
by the Pricing and Classification Service Center (PCSC) in New York, NY.

Most mailings entered at BMEUs are presorted and receive a discounted rate.
Presorting mail is a work-sharing incentive that offers discounted postage rates to
customers in exchange for performing a portion of the work associated with mail
processing. Unless employees properly prepare business mailings for the discounts
claimed, the Postal Service incurs increased processing costs.

The PostalOne! system is the Postal Service’s primary system for recording business
mail and Periodicals transactions. The PostalOne! system allows users to enter postage
statements, deposits, and other financial transactions; and to retrieve reports necessary
to manage the day-to-day business of their units. It also allows customers to submit
postage statements and other information to the Postal Service through a web-based
process. In addition, the Postal Service implemented a national Business Mailer
Support database to monitor special postage payment systems (SPPS) agreements at
all units.17 The Postal Service continuously updates the data to enhance oversight and
effectiveness in this area.

In an effort to improve financial reporting, the Postal Service implemented a revenue
completeness process in March 2010 that focused on key business mail acceptance
and verification procedures. Specifically, the new process established procedures for
mail check-in/receipt, verification, finalizing postage statements in PostalOne!,
placarding, induction, and end-of-day reconciliation.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether BMEUs complied with key financial
controls related to business mail acceptance and verification procedures. To accomplish
our objective, we conducted unannounced audit fieldwork from October 2009 through
September 2010 at 96 statistically selected sites that represented approximately
$2.5 billion in revenue for FY 2009.18 We traced recorded financial transactions to and
17
   SPPS provide alternative methods for mailers to calculate and pay postage. SPPS mailers are required to receive
Postal Service authorization, SPPS authorization agreements must be reviewed, and authorization agreements must
be maintained at BMEUs and DMUs.
18
   We obtained the FY 2009 operating revenue from the Financial Performance Report in the Accounting Data Mart
(ADM).

                                                        7
Fiscal Year 2010 Financial Installation Audit –                          FF-AR-11-006
 Business Mail Entry Units


from supporting documentation. We determined that automated data used was
sufficiently reliable by verifying automated records to source documents; however, we
did not perform a reliability assessment of the automated systems. We used Postal
Service instructions, manuals, policies, and procedures as criteria to evaluate internal
controls and data reliability. We interviewed supervisors and employees and observed
operations at this statistically selected Postal Service site.

To determine whether the unit complied with required financial reporting controls, we
evaluated the following:

     Financial
                                                  Scope and Methodology
      Control
  Overrides                 We obtained the PostalOne! Override Report and reviewed
                            transactions for a given reporting period to determine whether
                            the causes of the overrides appeared to be prudent and
                            reasonable. In addition, we determined whether the BMEU
                            supervisor reviewed the report daily to ensure all overrides from
                            the previous day were appropriate.
  Negative                  We obtained the PostalOne! Negative Balances Report and
  Balances                  reviewed accounts with negative balances. We determined
                            whether the customer deposited sufficient funds to pay for a
                            mailing before the unit released the mailing for processing.
  Inactive Master           We reviewed inactive permit and Periodicals (if the site serves as
  Trust Accounts            an additional entry) accounts to determine whether the unit
  and Refunds               properly closed the accounts and refunded balances according to
                            Postal Service policy. In addition, we determined whether the unit
                            maintained the required documentation to support refunds
                            processed.
  Master Trust              We compared balances for customer advance deposit accounts
  Account                   (in the manual records or PostalOne!) to the master trust account
  Reconciliation            balance reported in the general ledger.
  Missing                   We reviewed the PostalOne! Transaction Summary Report for
  Periodicals               Periodicals or the PostalOne! Advertising Percentage Report for
  Postage                   the prior 12-month period, and the PCSC’s Official Classification
  Statements                Records and Authorization data for Periodicals authorizations to
                            determine whether the unit recorded transactions for all mailings
                            processed.
  Postage                   We reviewed business and Periodicals postage statements for
  Statement                 completeness and timely posting to PostalOne!.
  Completion and
  Processing




                                                   8
   Fiscal Year 2010 Financial Installation Audit –                                  FF-AR-11-006
    Business Mail Entry Units



         Financial
                                                         Scope and Methodology
          Control
      Observation of           We physically observed clerks at BMEUs and DMUs accept and
      Revenue                  process mailings.
      Completeness
      Process

   We conducted this audit from October 2009 through January 2011 in accordance with
   generally accepted government auditing standards and included such tests of internal
   controls as we considered necessary under the circumstances. Those standards require
   that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions based on our audit objective. We
   believe that the evidence obtained provides a reasonable basis for our findings and
   conclusions based on our audit objective. We discussed our observations and
   conclusions with management officials on December 14, 2010, and included their
   comments where appropriate.

   PRIOR AUDIT COVERAGE

   We compared findings from the same sites audited during the past 3 years with the
   current sites to determine whether repeat deficiencies existed. We issued seven high-
   risk reports that assessed nation- and district-wide performance, three headquarters
   reports that summarized our installation-level audits for FYs 2007 through 2009 and one
   report that reviewed the impact of the PostalOne! system interruptions. Management
   generally concurred with the results and recommendations contained in these reports.
   Many of the findings identified in these reports still continue and are addressed in this
   audit report as well.

                                             Final
                         Report                           Monetary
  Report Title                              Report                   Other Impact          Report Results
                         Number                            Impact
                                             Date
Risk and Other Related Reports:
            and    MS-AR-10-005 8/30/201             0          $0    $55,029,888     We identified multiple
                                                                                      mail verification issues at
Business Mail                                                                         the                 BMEU
Entry Units Mail                                                                      and an issue at the
Verification                                                                                     BMEU related
Procedures                                                                            to the MERLIN Selection
                                                                                      Matrix.




                                                          9
   Fiscal Year 2010 Financial Installation Audit –                                   FF-AR-11-006
    Business Mail Entry Units


                                             Final
                         Report                       Monetary
  Report Title                              Report                    Other Impact          Report Results
                         Number                        Impact
                                             Date
Fiscal Year 2010      FF-AR-10-205         8/5/2010        $355,107   $298,000,000     The February 2010
PostalOne!                                                                             PostalOne! outage
Outage                                                                                 impacted mail
                                                                                       acceptance operations
                                                                                       and revenue collection
                                                                                       efforts nationwide. We
                                                                                       determined the Postal
                                                                                       Service was not
                                                                                       adequately prepared to
                                                                                       manually support
                                                                                       operations during such
                                                                                       an extended outage.
Fiscal Year 2009      FF-AR-10-028        12/3/2009             $0              $0     Our audit did not identify
                                                                                       any control and
        Financial                                                                      compliance issues at the
Risk                                                                                                 BMEU.
Fiscal Year 2009      FF-AR-09-226        9/30/2009        $147,274           N/A      Our audit disclosed that
– Negative                                                                             master trust accounts at
Master Trust                                                                           39 units erroneously
Account                                                                                showed negative
Balances                                                                               balances totaling
                                                                                       $1.58 million because of
                                                                                       improper accounting
                                                                                       entries and errors that
                                                                                       occurred when units
                                                                                       converted to the
                                                                                       PostalOne! system.
Fiscal Year 2009      FF-AR-09-225        9/30/2009         $89,274       $471,356     We identified internal
                                                                                       control and compliance
                                                                                       issues at BMEUs related
Financial Risk                                                                         to entering postage
Audit                                                                                  statements, closing
                                                                                       inactive accounts, and
                                                                                       monitoring PostalOne!
                                                                                       overrides.
Northland             FF-AR-09-224        9/28/2009          $3,664       $146,096     We identified issues
           Mail                                                                        related to postage
Entry Financial                                                                        statements not entered
Risk                                                                                   timely into PostalOne!,
                                                                                       inactive customer
                                                                                       deposit accounts not
                                                                                       closed, and Periodicals
                                                                                       verifications not
                                                                                       performed.




                                                      10
    Fiscal Year 2010 Financial Installation Audit –                                       FF-AR-11-006
     Business Mail Entry Units


                                          Final
                          Report                           Monetary
  Report Title                           Report                            Other Impact          Report Results
                          Number                            Impact
                                          Date
Fiscal Year 2009       FF-AR-09-221 9/17/200    9               $123,560       $108,182     District management did
                                                                                            not effectively monitor all
District Business                                                                           cancelled and inactive
Mail Entry Unit                                                                             advance deposit
Financial Risk                                                                              accounts, postage
Audit                                                                                       statement processing,
                                                                                            and PostalOne! system
                                                                                            overrides.
Fiscal Year 2009       FF-AR-09-200        7/24/2009            $166,094        $96,750     We identified internal
         Financial                                                                          control and compliance
Risk Audit                                                                                  issues related to inactive
                                                                                            customer trust accounts
                                                                                            and value-added
                                                                                            refunds.
Capping Reports:
Fiscal Year 2009       FF-AR-10-051        12/22/2009               N/A             N/A      We identified various
Financial                                                                                    internal control and
Installation Audit -                                                                         compliance issues
Business Mail                                                                                related to managing
Entry Units                                                                                  customer accounts and
Fiscal Year 2008       FF-AR-09-052 12/22/20          08            N/A             N/A      eligibility; accepting,
Financial                                                                                    verifying, and clearing
Installation Audit                                                                           the mail; and monitoring
- Business Mail                                                                              SPPS. Although internal
Entry Units                                                                                  controls were generally
                                                                                             in place and effective, a
Fiscal Year 2007       FF-AR-08-131 3/19/200          8             N/A             N/A      significant deficiency
Financial                                                                                    existed related to the
Installation Audit -                                                                         acceptance of mail.
Business Mail
Entry Units




                                                           11
     Fiscal Year 2010 Financial Installation Audit –                                                  FF-AR-11-006
      Business Mail Entry Units


                                   APPENDIX B: BMEUs AUDITED IN FY 2010

                                                                       FY 2009             OIG Report          Monetary         Other
          Unit Name             Location           Unit Type
                                                                       Revenue              Number             Impact19        Impact19
                                                  Associate
1                                                  Office                $143,481       FF-AR-10-117 $0                                 $0
                                                   (AO)20
2                                                  BMEU                  1,100,717      FF-AR-10-052                    0             1,605
3                                                  BMEU                 46,559,789      FF-AR-10-044                    0                 0
4                                                  BMEU                 10,129,039      FF-AR-10-189                    0                 0
5                                                    AO                    213,061      FF-AR-10-214                    0                 0
6                                                    AO                     95,315      FF-AR-10-135                    0                 0
7                                                  BMEU                 61,482,459      FF-AR-10-085                1,800                 0
8                                                   BMEU                17,789,944      FF-AR-10-081                     0                0
9                                                   BMEU                   612,123      FF-AR-10-073                     0                0
10                                                   AO                    670,190      FF-AR-10-199                     0                0
11                                                    AO 69,831                         FF-AR-10-048                     0                0
12                                                   AO                  1,054,693      FF-AR-10-161                2,222                 0
13                                                  BMEU                   714,979      FF-AR-10-112                    0             1,542
14                                                  BMEU 52,165,2                 80    FF-AR-10-102                8,494                 0

15                                                    AO 196,45                    3    FF-AR-10-134                     0                0

16                                                  BMEU 30,605,6                 21    FF-AR-10-066                     0                0

17                                                  BMEU 120,89               1,702     FF-AR-10-170                     0                0
18                                                  BMEU                11,695,562      FF-AR-10-123                     0       117,375
19                                                  BMEU                99,295,852      FF-AR-10-176                     0             0
20                                                   AO                    444,848      FF-AR-10-127                     0             0
21                                                  BMEU                57,126,511      FF-AR-10-068                     0             0
22                                                   AO                     91,996      FF-AR-10-142                     0             0
23                                                  BMEU                 1,553,956      FF-AR-10-198                     0             0
24                                                  BMEU                 8,995,801      FF-AR-10-060                     0             0
25                                                   AO                    962,803      FF-AR-10-190                     0             0
26                                                  BMEU               101,510,761      FF-AR-10-223                     0             0
27                                                    AO 88,772                         FF-AR-10-150                     0                0
28                                                  BMEU                92,981,250      FF-AR-10-140                     0                0
29                                                  BMEU                 8,797,698      FF-AR-10-046                     0                0
30                                                   AO                    106,953      FF-AR-10-120                     0                0
31                                                   AO                     53,378      FF-AR-10-054                     0                0


     19
        We included these amounts in the individual reports previously issued.
     20
        An AO is a post office that reports to a larger post office or is in the service area of a sectional center facility (SCF).
     It usually receives and dispatches all mail classes to and from the SCF.
     21
        This unit complied with all key financial reporting controls evaluated.
     22
        This unit had deficiencies in four or more of the key control areas.

                                                                  12
     Fiscal Year 2010 Financial Installation Audit –                                   FF-AR-11-006
      Business Mail Entry Units

                                                               FY 2009         OIG Report    Monetary      Other
        Unit Name            Location         Unit Type
                                                               Revenue          Number       Impact19     Impact19
32                                              AO                $138,020    FF-AR-10-065          $0          $0
33                                             BMEU              9,921,087    FF-AR-10-079      10,376           0
34                                              AO             145,885,580    FF-AR-10-145           0           0
35                                             BMEU            132,487,602    FF-AR-10-074           0           0
36                                              AO               1,019,241    FF-AR-10-083           0           0
37                                              AO              12,662,205    FF-AR-10-215           0           0
38                                             BMEU            108,006,748    FF-AR-10-164           0           0
39                                             BMEU             77,910,506    FF-AR-10-209       2,688               0
                                               BMEU/
40                                                              87,493,424 FF-AR-1   0-216            0              0
                                                DMU
41                                               AO                228,701    FF-AR-10-158           0               0
42                                             BMEU                895,466    FF-AR-10-206           0               0
43                                               AO             16,305,289    FF-AR-10-076       4,161               0
44                                             BMEU             57,542,130    FF-AR-10-218           0               0
                                               BMEU/
45                                                              69,873,099 FF-AR-1   0-173      27,910               0
                                                DMU
46                                               AO                939,124    FF-AR-10-021           0               0
47                                             BMEU                227,259    FF-AR-10-041           0               0
48                                               AO                 79,938    FF-AR-10-154           0               0
49                                             BMEU             86,260,355    FF-AR-10-069       1,846               0
50                                             BMEU 12,361,8             34   FF-AR-10-167            0              0
51                                             BMEU            114,757,884 FF-AR-10-067              0               0
52                                             BMEU             79,063,987 FF-AR-10-212              0               0
53                                             BMEU              7,616,644 FF-AR-10-062              0               0
54                                             BMEU              3,146,918 FF-AR-10-151              0               0
55                                             BMEU             50,362,542 FF-AR-1 0-201         8,510               0
56                                             BMEU             95,033,562    FF-AR-10-141            0              0
57                                             BMEU             20,786,342    FF-AR-10-219      14,009               0
58                                               AO               507,479     FF-AR-10-152            0              0
59                                              AO               2,885,305    FF-AR-10-088            0              0
60                                             BMEU             16,641,401    FF-AR-10-019            0              0
61                                               AO 785,90               7    FF-AR-10-125            0    174,478
62                                             BMEU             65,019,084    FF-AR-10-072            0              0
63                                             BMEU             24,455,304    FF-AR-10-133            0              0
64                                               AO 198,74               0    FF-AR-10-078            0              0
65                                             BMEU             27,348,179    FF-AR-10-040       7,663           0
66                                             BMEU              1,171,302    FF-AR-10-036      10,790           0
67                                              AO                  92,807    FF-AR-10-063           0           0
68                                             BMEU              2,245,284    FF-AR-10-084           0      23,258
69                                             BMEU              5,419,856    FF-AR-10-064       1,288           0
70                                             BMEU            141,695,737    FF-AR-10-097      16,440           0


                                                          13
     Fiscal Year 2010 Financial Installation Audit –                                   FF-AR-11-006
      Business Mail Entry Units

                                                               FY 2009         OIG Report     Monetary       Other
        Unit Name            Location         Unit Type
                                                               Revenue          Number        Impact19      Impact19
71                                             BMEU             $3,805,952    FF-AR-10-168         $4,205         $0
72                                               AO 242,41               1    FF-AR-10-197             0               0
73                                              AO                 100,189    FF-AR-10-082              0              0
74                                             BMEU              1,778,654    FF-AR-10-059              0              0
75                                             BMEU             46,408,039    FF-AR-10-095         19,208              0
76                                             BMEU 2,264,02              8   FF-AR-10-007             0               0

77                                               AO               161,247     FF-AR-10-035             0               0
78                                              AO               1,010,522    FF-AR-10-178             0           0
79                                             BMEU              1,884,098    FF-AR-10-166 1,604                   0
80                                              AO                 315,095    FF-AR-10-188             0           0
81                                             BMEU             55,234,229    FF-AR-10-147             0           0
82                                             BMEU             25,599,345    FF-AR-10-204             0           0
83                                              AO                  56,012    FF-AR-10-080             0           0
84                                             BMEU              1,118,971    FF-AR-10-195             0           0
85                                              AO               6,488,112    FF-AR-10-010             0           0
86                                             BMEU              8,590,593    FF-AR-10-024             0           0
87                                             BMEU            123,612,425    FF-AR-10-107             0           0
88                                             BMEU              3,019,365    FF-AR-10-077             0      18,549
89                                              AO               1,334,338    FF-AR-10-180             0           0
90                                             BMEU 26,079,5             42   FF-AR-10-053          5,626              0
91                                              AO                 620,206    FF-AR-10-181             0               0
92                                             BMEU             15,222,416    FF-AR-10-058             0               0
93                                             BMEU 561,57               4    FF-AR-10-109             0               0
94                                             BMEU             12,751,737    FF-AR-10-175             0               0
95                                              AO                  66,951    FF-AR-10-018             0               0
96                                              AO                 157,114    FF-AR-10-174             0               0
          Total                                           $2,546,155,855                      $148,840      $336,807




                                                          14
Fiscal Year 2010 Financial Installation Audit –                                   FF-AR-11-006
 Business Mail Entry Units


                         APPENDIX C: KEY CONTROL DEFICIENCIES

                       Control Deficiencies Reported for FYs 2009-2010

                                                                    FY 2010          FY 2009
                                                                   Number of        Number of
                                                                 Locations with     Locations
          Description of Key Financial Reporting Control
                                                                    Finding        with Finding
                            Deficiency
                                                                 Sample Size =    Sample Size =
                                                                     96               96

            Mail Acceptance and Verification Procedures
         The unit did not comply with financial reporting
         controls over monitoring and closing inactive
                                                                      37                27
         accounts (permit and/or Periodicals accounts; site
         serves as an additional entry for Periodicals).
         The unit did not verify that the mailer’s sections of
         the permit/business mail postage statement were              36                53
         completed (financial attributes only).
         We observed that unit personnel did not accept and
                                                                                    44 BMEUs;
         verify mailings at the BMEU and/or DMU according             28
                                                                                     11 DMUs
         to Postal Service policy.
         The unit did not complete the Postal Service
         sections of the permit/business mail postage                 26                55
         statement (financial attributes only).
         Unit management did not review the PostalOne!
         Override Report on a regular basis to ensure all             20               N/A
         overrides were appropriate.
         The unit did not verify that the publisher/customer’s
         sections of the Periodicals postage statement were           16                23
         completed (financial attributes only).
         The unit did not monitor for missing Periodicals
         postage statements (frequency breaks) or review
         mailing frequencies. Specifically, the unit allowed          14                26
         mailings to enter the mailstream without a postage
         statement.
         The unit did not complete the Postal Service
         sections of the Periodicals postage statement                13                26
         (financial attributes only).
         The unit did not correctly record required
         information from the permit/business mail postage            13                6
         statement in PostalOne!.
         The unit did not post data from the permit/business
         mail postage statement to the mailer's account               10                17
         (PostalOne!) within a reasonable amount of time.
         The unit did not correctly record required
         information from the Periodicals postage statement            8                4
         in PostalOne!.
         The unit did not attach or sign PS Form 3607,
         Weighing and Dispatch Certificate, to the
                                                                       7                7
         permit/business mail postage statement after
         entering the data to PostalOne!.



                                                     15
Fiscal Year 2010 Financial Installation Audit –                                  FF-AR-11-006
 Business Mail Entry Units


                                                                   FY 2010          FY 2009
                                                                  Number of        Number of
                                                                Locations with     Locations
          Description of Key Financial Reporting Control
                                                                   Finding        with Finding
                            Deficiency
                                                                Sample Size =    Sample Size =
                                                                    96               96
         We observed unit personnel did not accept and
         process mailings at the BMEU and/or
         DMU according to Postal Service policy for revenue
         completeness:
                  Check-In                                            0               N/A
                  Verification                                        6               N/A
                  Final Recording                                     0               N/A
                  Placarding/Induction                                0               N/A
                  End-Of-Day Reconciliation                           0               N/A
         The unit did not verify that supporting
         documentation such as PS Form 3533, Application
         for Refund of Fees, Products and Withdrawal of               4               N/A
         Customer Accounts, was provided for requested
         refunds.
         The unit did not confirm that sufficient funds were
         on account before processing mailings or review the
                                                                      4               N/A
         PostalOne! Negative Balances Report on a daily
         basis as required.
         The unit did not post data from the Periodicals
         postage statement to the mailer's account                    3                11
         (PostalOne!) within a reasonable amount of time.
         The unit did not reconcile master trust balances in
                                                                      3                2
         the ADM with balances maintained by the unit.
         The unit did not post data from the Periodicals
         postage statement to the mailer's account
                                                                      1                2
         (PostalOne!). NOTE: These typically are not part of
         the postage statement sample.
         The unit did not use PS Form 6116, First-Class
         Metered Mail – Shortpaid Sampling Worksheet,                 0                4
         when sampling First-Class™ metered mail.
         The unit did not verify that a mailer used a valid
         Coding Accuracy Support System or provided
                                                                      0                3
         adequate documentation for enhanced carrier route
         rates.
         The unit did not monitor the mailer’s account to
                                                                      0                2
         ensure the annual fee was paid.
         The unit did not post data from permit/business mail
         postage statements to the mailer's account
                                                                      0                2
         (PostalOne!). NOTE: These typically are not part of
         the postage statement sample.
         The unit did not complete PS Form 8125, Plant-
         Verified Drop Shipment Verification and Clearance.           0                1




                                                   16
Fiscal Year 2010 Financial Installation Audit –          FF-AR-11-006
 Business Mail Entry Units



                         APPENDIX D: MANAGEMENT’S COMMENTS




                                                  17
Fiscal Year 2010 Financial Installation Audit –        FF-AR-11-006
 Business Mail Entry Units




                                                  18
